U.S. Department of Justice
Office of the Solicitor General

The Solicitor General

Washington, D.C. 20530

April 6, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Derrick Lakeith Brown v. United States, No. 20-7077
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on January 21,
2021, and placed on the Court’s docket on February 8, 2021. The response of the United States
is now due, after one extension, on April 9, 2021. We respectfully request, under Rule 30.4 of
the Rules of this Court, a further extension of time to and including May 7, 2021, within which to
file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Because petitioner is an incarcerated federal prisoner proceeding pro se, we have not
obtained his consent to this request.
Sincerely,

Elizabeth B. Prelogar
Acting Solicitor General

cc:

See Attached Service List

20-7077
BROWN, DERRICK LAKEITH
USA

DERRICK LAKEITH BROWN
PRISONER NO. 20986-076
USP ADX
PO BOX 8500
FLORENCE, CO 81226

